Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives

                            Actions Needed To
For Release on Delivery
Expected at
10:00 a.m. EDT
Wednesday
May 9, 2007                 Reduce Risk With the
                            Next Generation Air
CC-2007-047



                            Transportation System


                            Statement of
                            The Honorable Calvin L. Scovel III
                            Inspector General
                            U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify on the Federal Aviation Administration’s
(FAA) efforts to develop and implement the Next Generation Air Transportation
System (NextGen). FAA’s Joint Planning and Development Office (JPDO) was
established by law to begin advancing NextGen in the 2025 timeframe and coordinate
diverse Federal research and development efforts.

As we have noted in previous reports and testimonies, there are compelling reasons
for moving forward with NextGen. The current air traffic system (which operates
largely on a ground-based infrastructure) has served the Nation well, but “business as
usual” will not be sufficient to meet the anticipated demand for air travel or changes
in the industry. Last year, U.S. airlines handled over 700 million passengers—this is
forecasted to grow to over 1 billion by 2015 as illustrated in figure 1.

   Figure 1. U.S. Commercial Air Carriers System Enplanements
                     Fiscal Years 2006-2020
                                  1250
                                                Mainline    Regional

                                  1000
         Millions of Passengers




                                  750



                                  500



                                  250



                                    0
                                         2006        2008      2010    2012   2014   2016   2018   2020



        Source: FAA Forecast 2007-2020

With respect to delays, operational performance of the National Airspace System
(NAS) slipped slightly in 2006 with one in four flights arriving late. This is the worst
level since 2000 when aviation gridlock dominated the aviation agenda. We note that
the average length of flight delays has increased from 51 minutes in 2000 to
53 minutes in 2006. Also, recent weather incidents that resulted in long, on-board
delays have made the state of customer service a “front-and-center” issue once again;
this was the subject of a hearing before this Subcommittee last month. It will be
important for FAA and the JPDO to define solutions much sooner than 2025.




                                                                                                          1
A driving force of FAA’s reauthorization proposal is the financing of NextGen
development. Much of the debate thus far has focused on the pros and cons of
various financing mechanisms, such as user fees. This is understandable given the
scope of the changes proposed by FAA. Nevertheless, FAA needs to focus greater
attention on NextGen with respect to what capabilities will be delivered, when they
will be delivered, and how the overall effort will be managed.

While there is considerable controversy about how best to finance FAA, there is
general agreement on the need to modernize the NAS. FAA and the JPDO have
established much needed goals to enhance capacity, reduce operating costs, and boost
productivity. However, a multi-agency approach will be essential because FAA
conducts very little long-term air traffic management research.

Our recent work shows that the development of and transition to NextGen are
extraordinarily complex, high-risk efforts that will involve billion-dollar investments
by both the Government and airspace users. Much work remains to establish
requirements and align agency budgets to make the JPDO a truly effective multi-
agency vehicle as set out by Vision 100.1 Moreover, FAA is at a crossroads with
respect to modernization; there are a wide range of actions that it must take to reduce
risk and position the Agency to successfully deliver new capabilities.

As requested by this Subcommittee, my statement today will focus on:

    • FAA’s progress and problems with ongoing modernization projects—this is
      important because existing projects form the basic platforms for NextGen
      initiatives.
    • JPDO’s progress to date in coordinating and aligning agency budgets and plans for
      NextGen—much work remains to achieve this and truly make the JPDO a multi-
      agency effort.
    • FAA actions needed to help the JPDO shift from planning to implementation and
      reduce risk with NextGen—a complex, multibillion-dollar effort.

FAA’s Progress and Problems With Ongoing Modernization
Projects
Since the 1980s, FAA has spent $46 billion on various capital programs, including
radars, air-to-ground communication systems, and facilities. A clear understanding of
the status of existing programs is important because the transition to NextGen will
build upon these programs.

For fiscal year (FY) 2008, FAA is requesting $2.46 billion in capital funds, the
majority of which ($2.3 billion) is for Air Traffic Organization (ATO) efforts to

1
    Vision 100 – Century of Aviation Reauthorization Act, Pub. L. No. 108-176 (2003).


                                                                                        2
modernize the NAS. Since FY 2005, capital funding requests have leveled off, falling
within the range of $2.4 billion to $2.5 billion, well below the levels authorized in the
Vision 100 Act.

Over the last several years, increasing operating costs have crowded out funds for the
capital account. Another trend has been FAA’s decision to cancel, defer, and segment
acquisitions while the capital budget stayed essentially flat. Further, only about
50 percent of FAA’s capital budget goes to air traffic systems; the remainder goes to
personnel, mission support, and facilities (i.e., sustainment). Although a large portion
of FAA’s capital funds will go toward sustainment, FAA is requesting funds for key
technologies for NextGen. These include the following:

    • Automatic Dependent Surveillance-Broadcast (ADS-B) 2 is a satellite-based
      technology that allows aircraft to broadcast their position to others. FAA
      requested $80 million in FY 2007 for this satellite-based technology. For FY
      2008, it is requesting $85.7 million. FAA expects to award a contract for the
      installation and maintenance of the ADS-B ground infrastructure in 2007.
      However, a number of challenges must be addressed. These include conducting
      human factors work and determining how air and ground elements will be certified
      as safe. FAA may have to rely on a rulemaking initiative to help speed ADS-B
      airspace user equipage. The current cost estimate for ADS-B is approximately
      $1.2 billion, and FAA is planning to re-baseline the ADS-B costs this summer.

    • System Wide Information Management (SWIM) is a new information
      architecture that will allow airspace users to securely and seamlessly access a wide
      range of information on the status of the National Airspace System and weather
      conditions. It is analogous to an internet system for all airspace users. FAA
      requested $24 million for this program in FY 2007. For FY 2008, it is requesting
      $21.3 million. The cost to fully implement SWIM is unknown, and we note that
      SWIM is scheduled to be reviewed by FAA’s Joint Resources Council this June.

In FAA’s FY 2008 budget submission, the Agency is requesting funds for new
NextGen initiatives, such as NextGen Data Communication ($7.4 million), NextGen
Network Enabled Weather ($7 million), and a new NAS Voice Switch ($3 million).
FAA is also requesting $50 million for demonstration and infrastructure projects.



2
    The first phase of ADS-B implementation, known as ADS-B out, is expected to replace many ground radars
    that currently provide aircraft surveillance with less costly ground-based transceivers. Aircraft would be
    equipped with ADS-B out, which broadcasts a signal to these transceivers. However, implementing ADS-B
    out is just the first step to achieving the larger benefits of ADS-B, which would be provided by ADS-B in.
    ADS-B in would allow aircraft to receive signals from ground-based transceivers or directly from other
    aircraft equipped with ADS-B. This could allow pilots to “see” nearby traffic and, consequently, transition
    some responsibility for maintaining safe separation from the air traffic controllers to the cockpit.


                                                                                                             3
FAA Needs To Keep Its Major Acquisitions on Track
At the request of this Subcommittee, we are updating our work on FAA’s progress
and problems with its major acquisitions and its efforts to move toward NextGen. We
are tracking 18 programs with a combined acquisition cost of $17 billion. Our
analysis shows that several programs (with combined capital costs of $6 billion) will
require significant attention and oversight because of their size, diminishing benefits,
potential cost and schedule problems, or importance to the NextGen transition.

En Route Automation Modernization (ERAM): This program is intended to
replace the “Host” computer network—the central nervous system for facilities that
manage high-altitude traffic. FAA requested $375.7 million for ERAM in FY 2007.
For FY 2008, it is requesting $368.8 million. The first ERAM system is scheduled to
be fielded by December 2009. While providing some enhancements, ERAM is
essentially a one-for-one replacement for the existing “Host” computer system. As
currently structured, ERAM will have two follow-on software releases (releases 2 and
3) valued at $83 million; these are still undefined. ERAM is expected to provide the
basic platform for NextGen’s automated capabilities.

With an acquisition cost of $2.1 billion and a monthly expenditure or “burn rate” of
$31 million, this program continues to be one of the most expensive and complex
acquisitions in FAA’s modernization portfolio.             While currently on track,
considerable testing and integration work lies ahead. The next major milestone is
completion of Factory Acceptance Testing, 3 which is planned for June 2007. Any
ERAM cost increases or schedule slips will impact other capital programs and could
directly affect the pace of the overall transition to NextGen.

Federal Aviation Administration Telecommunications Infrastructure (FTI):
The FTI program is to replace seven FAA-owned and -leased telecommunications
networks with a single network that will provide FAA with telecommunications
services through 2017. FAA expects that FTI will significantly reduce its operating
costs after the new network is completed. In FY 2007, FAA requested $28 million for
the FTI program. For FY 2008, it is requesting $8.5 million. The vast majority of
FTI, however, is funded out of the Operations Account as opposed to the Facilities
and Equipment Account, which funds most acquisitions. For FY 2008, FAA
estimates it will need $210 million to support FTI operations. Additionally, FAA is
planning to request another $91 million to maintain legacy network operations until
the FTI transition is complete.




3
    Factory Acceptance Testing is defined by FAA as formal testing conducted by the contractor to verify that the
    production item conforms to all contract specifications, is free from manufacturing defects, and meets all
    system requirements.


                                                                                                               4
In April 2006, we reported 4 that FTI was a high-risk and schedule-driven effort that
was unlikely to meet its December 2007 completion date. We found that FAA needed
to improve management controls over FTI by developing a realistic master schedule
and an effective transition plan. Since our report, the Agency has extended the FTI
completion date to December 2008; this represents a 1-year schedule delay. In May
2006, we began a follow-up review of FTI. To its credit, FAA is making significant
progress in delivering FTI services. As of March 31, 2007, 10,973 of about
21,820 services were operating on FTI.

As a result of the delay, FAA’s Joint Resources Council approved a new cost baseline
for FTI in August 2006. FAA increased its acquisition costs to develop the FTI
network by an additional $8.6 million (from $310.2 to $318.8 million) and increased
its overall operations costs to support FTI and legacy networks by about $100 million
(from $3.0 to $3.1 billion).

We also continue to see an erosion of expected FTI cost savings. For example, in
October 2005, the Program Office reported a reduction in the benefit estimate from
$820 million to $672 million. By the end of FY 2006, we estimate that FTI cost
savings decreased from $672 million to $442 million, including sunk costs.
Moreover, since FAA has not yet validated the FTI cost and benefits estimates that
were approved in August 2006—an action that we recommended and that FAA
agreed to take—the true FTI costs and benefits remain unknown.

FAA continues to face challenges in making the transition to FTI. For instance, FAA
currently has a large backlog of FTI services (averaging about 1,800 services over the
last 3 months) that need to be addressed. The backlog includes transition failures, on-
hold services, misconfigured [sic] equipment, and obsolete services. Additionally,
transitioning digital services, such as critical radar and flight data, to FTI continues to
be problematic. Some digital services were placed on “national hold” while
engineering solutions could be developed.

In addition, FAA needs to ensure that it has an effective strategy to address FTI
reliability and customer service problems. For example, many FTI services are not
meeting reliability standards and are not being restored to service within contractual
timeframes after outages. These problems led to unscheduled outages of both primary
and back-up services, which led to flight delays. For example, on January 9, 2007,
the Salt Lake City en route center experienced a 3-hour outage that caused
90 departure delays due to an FTI maintenance contractor trying to upgrade
operational FTI equipment.


4
    OIG Report Number AV-2006-047, “FAA Telecommunications Infrastructure Program: FAA Needs To Take
    Steps To Improve Management Controls and Reduce Schedule Risks,” April 27, 2006. OIG reports and
    testimonies can be found on our website: www.oig.dot.gov.


                                                                                                  5
Overall, key watch items for FTI include addressing the backlog of services,
improving FTI reliability and customer service, stopping the erosion of expected cost
benefits, and validating costs. Recently, FAA has completed negotiations with
Verizon Business to extend LINCS 5 (FAA’s largest and costliest existing network to
be replaced by FTI), which expired in April 2007. FAA has agreed to a $92 million
ceiling price to extend LINCS until April 2008. We will be reporting on the FTI
program later in the year.

Airport Surface Detection Equipment-Model X (ASDE-X): ASDE-X is an
important safety initiative planned to reduce the risks of accidents on runways. In FY
2007, FAA requested $63.6 million for the ASDE-X program. For FY 2008, it is
requesting $37.9 million.

ASDE-X is FAA’s latest effort designed to provide controllers with positive
identification of aircraft and vehicle positions on the airport surface. It is planned to
improve airport safety by operating in all-weather and low-visibility conditions (e.g.,
fog, rain, and snow) when controllers cannot see surface movement on ramps,
runways, and taxiways.

ASDE-X was initially designed to provide a low-cost alternative to FAA’s ASDE-3
radar systems for small- to medium-sized airports but has evolved into a different
program. FAA made a significant change to the scope of the program in September
2005 and now intends to upgrade ASDE-3 systems with ASDE-X capabilities at
25 large airports and install the system at 10 other airports that currently lack any
surface surveillance technology. In September 2005, FAA increased ASDE-X costs
from $505.2 million to $549.8 million and extended the completion date from 2007 to
2011.

We are concerned about further cost increases and schedule delays with this important
program since the cost to acquire and install some ASDE-X activities has increased
by $94 million since the 2005 re-baseline. To stay within the revised baseline, FAA
offset this cost by decreasing planned expenditures for seven other program activities,
such as construction for later deployment sites.

We are also concerned that the ASDE-X schedule is not realistic. As of March 2007,
FAA had commissioned only 8 of the 35 ASDE-X sites. Of the seven sites planned
for FY 2006, FAA only commissioned four. Further, it is uncertain when key safety
features will be delivered. For example, FAA has yet to commission an ASDE-X
system that can alert controllers of potential collisions on intersecting runways or
converging taxiways. Because of these issues, the program is at risk of not meeting


5
    In March 2007, about 43 percent of LINCS A-nodes had been decommissioned.



                                                                                       6
its current cost and schedule plans to deliver all 35 ASDE-X systems by 2011. We
are reviewing ASDE-X and will issue a report later this year.

Air Traffic Management (ATM): ATM includes the Traffic Flow Management–
Modernization (TFM-M) program and the Collaborative Air Traffic Management
Technologies (CATMT) program. TFM-M modernizes the TFM system, which is the
Nation’s single source for capturing and disseminating air traffic information to
reduce delays and make maximum use of system capacity. CATMT provides new
decision support tools to deliver additional user benefits and increase effective NAS
capacity. At a cost of $450 million, these are two key efforts for coordinating air
traffic across the NAS and managing the adverse impacts of bad weather. In FY
2007, FAA requested $79 million for ATM programs. For FY 2008, it is requesting
$91 million.

Although the TFM-M effort has not experienced cost increases or schedule delays, we
are concerned about risks and what will ultimately be delivered. Our concerns are
based on the fact that FAA and the contractor significantly underestimated the size
and complexity of TFM-M software development. FAA was pursuing TFM-M
through a cost-reimbursable agreement, meaning that all risk for cost growth rested
with the Government. FAA has modified the contract and adjusted the scope of work.
The current risks for TFM-M focus on developing complex software, integrating
TFM-M with other NAS systems, and stabilizing requirements.

Terminal Modernization and Replacement of Aging Controller Displays: FAA’s
FY 2008 budget request calls for $40 million for efforts aimed at modernizing
controller displays and related automation systems at terminal facilities. FAA’s
budget states that three-fourths of the FY 2008 funds will be used for the Standard
Terminal Automation Replacement System (STARS) “technology refresh” (i.e.,
replacing obsolete components) and software enhancements.

FAA’s past modernization efforts have focused exclusively on STARS. In 2004,
faced with cost growth in excess of $2 billion for STARS, FAA rethought its terminal
modernization approach and shifted to a phased process. FAA committed STARS to
just 50 sites at an estimated cost of $1.46 billion as opposed to the original plan to
deploy STARS at 172 sites at a cost of $940 million. 6 FAA renamed this
modernization effort the Terminal Automation Modernization-Replacement (TAMR)
initiative.

In 2005, FAA approved modernizing five additional small sites with STARS and
replacing the aging displays at four large, complex facilities at a cost of $57 million.
This leaves over 100 sites that still need to be modernized. Although FAA has not

6
    OIG Report Number AV-2005-016, “Terminal Modernization: FAA Needs To Address Its Small, Medium,
    and Large Sites Based on Cost, Time, and Capability,” November 23, 2004.


                                                                                                 7
decided how it will modernize these 100 sites, its budget submission indicates that
this effort could cost over $1 billion.

There is no current defined “end state” for terminal modernization, and past problems
with developing and deploying STARS leave FAA in a difficult position to begin
transitioning to NextGen capabilities. Future costs will be shaped by (1) NextGen
requirements, (2) the extent of FAA’s terminal facilities consolidation, and (3) the
need to replace or sustain existing (or legacy) systems that have not yet been
modernized.

Without question, the most urgent concern facing terminal modernization is how
quickly FAA can replace aging displays at the four large sites that are particularly
critical to the NAS—Chicago, Illinois; Denver, Colorado; St. Louis, Missouri; and
Minneapolis, Minnesota. FAA chose not to compete this work based on a joint
proposal from two contractors and instead decided to modify the current STARS
contract to include the work. Although this was expected to expedite replacement of
the aging displays, the time spent revising the contract to establish cost, schedule, and
design parameters caused FAA to lose the time advantage from foregoing
competition. As a result, the aging displays will not be replaced until 2008. We
recommended action on this matter over 2 years ago in November 2004.

Advanced Technology and Oceanic Procedures (ATOP): FAA requested
$31.4 million in FY 2007. For FY 2008, it is requesting $53.1 million. ATOP is
FAA’s $548 million effort to modernize how controllers manage oceanic flights.
FAA now has ATOP in use at Oakland, California; New York, New York; and
Anchorage, Alaska.

Since September 2005, FAA controllers have experienced recurring failures (loss of
data-link communication with aircraft and aircraft position jumps) with the new
ATOP system at the Oakland site. These problems directly limit the potential
capacity and productivity benefits from the new automation system. This could
impact FAA’s plans for using ATOP to demonstrate NextGen capabilities.

According to controllers, these incidents represent potentially hazardous safety
conditions that need to be resolved. The larger separation distances required between
aircraft over the oceans than for those in domestic airspace have allowed controllers
to manage these problems. However, benefits from the new automation system, such
as reduced separation, have not been fully realized. Problems persist in ATOP as
evidenced by two operations bulletins (on aircraft altitude changes and detecting
conflicts between aircraft) issued by the Oakland facility in April. FAA needs to
resolve the problems that it has identified with communication service providers and
aircraft avionics and adjust ATOP software as needed to realize expected benefits.




                                                                                       8
Perspectives on FAA’s Metrics for Measuring Progress With Major
Acquisitions
FAA reports in its FY 2007 Flight Plan and the most recent Performance and
Accountability Report that 100 percent of its critical acquisitions were within
10 percent of budget estimates and 97 percent were on schedule for 2006. FAA is
currently tracking about 29 acquisitions, such as the acquisition of new radars.

FAA’s cost and schedule metrics are worthwhile tools for Agency management and
oversight of major acquisitions—a step we called for a number of years ago.
However, these metrics have limitations that need to be understood by decision
makers in order to properly assess the overall status of FAA’s acquisition portfolio.

First, FAA’s cost and schedule metrics are snapshots in time. They are not designed
to address changes in requirements, reductions in procured units, or shortfalls in
performance that occur over time. Second, FAA’s budget metrics involve
comparisons of cost estimates taken during the fiscal year. These estimates involve
the updated, “re-baselined” cost figures—not estimates from the original baseline.
This explains why the Wide Area Augmentation System (a satellite-based navigation
system) is considered “on budget” even though costs have grown from $892 million
to over $3 billion since 1998.

“Re-baselining” a project is important to get realistic cost and schedule parameters
and is consistent with Office of Management and Budget (OMB) guidance and the
Agency’s own Acquisition Management System. The revised baselines are used for
justifying budgets and making investment decisions, i.e., ensuring that major
acquisitions are still cost beneficial. We note that OMB allows FAA to measure
deviations from the new baselines once they have been approved. Nevertheless, such
comparisons of revised program baselines—absent additional information—fail to
provide an accurate picture of a program’s true cost parameters.

Finally, FAA’s schedule metrics used for assessing progress with several programs in
2006 were generally reasonable but focused on interim steps or the completion of
tasks instead of whether systems met operational performance goals. For example,
ASDE-X metrics focused on delivery of two systems. This metric does not relate to
whether systems entered service or met operational performance expectations. We
note that there are no written criteria for selecting or reporting the milestones. The
table below provides information on some of the metrics used for measuring progress
with acquisitions in FY 2006.




                                                                                    9
               Table. Metrics Used To Measure Programs in 2006
               Program                         Metric                 Planned Date     Actual Date
      Airport Surface Detection          Deliver two systems         February 2006 February 2006
        Equipment Model-X
         Standard Terminal                Deliver to one site        February 2006     January 2006
      Automation Replacement
               System
      Air Traffic Management       Conduct detailed design review     August 2006      March 2006
      Precision Runway Monitor     Complete factory acceptance        April 2006        April 2006
                                        testing for Atlanta
      Wide Area Augmentation       Complete initial installation of September 2006      May 2006
             System                   two reference stations
      Source: FAA ATO-F Capital Expenditures Program Office

As FAA’s former chief operating officer stated, measuring cost and schedule may not
be sufficient in evaluating NextGen initiatives. We agree and believe it will be
important to focus on the promised capability and benefits of new initiatives,
particularly those associated with the goals of enhancing capacity, boosting
productivity, and reducing Agency operating costs. Therefore, FAA should explore a
wider range of metrics to measure—and report on—progress with NextGen efforts.

JPDO’s Progress to Date in Coordinating and Aligning Research—
Much Work Remains To Truly Make the JPDO a Multi-Agency Effort
FAA’s JPDO was specifically mandated by Congress in the Vision 100 Act to
develop a vision for NextGen and coordinate diverse agency research efforts. The
office was established within FAA to coordinate research efforts underway at the
National Aeronautics and Space Administration (NASA), Department of Commerce,
Department of Defense (DOD), and Department of Homeland Security (DHS). The
JPDO’s mission is critical because FAA conducts very little long-term air traffic
management research. FAA requested $18 million in FY 2007 for the JPDO. For FY
2008, it is requesting $14 million.7

The majority of the JPDO’s work is done through eight integrated product teams
(IPT) that focus on specific strategies, such as how to use weather information to
improve the performance of the National Airspace System. The teams are composed
of personnel from FAA, other Federal agencies, and the private sector.



7
    The JPDO is funded through FAA’s Research, Engineering, and Development account. In FY 2008, JPDO
    officials expect to also rely on $3.5 million from the capital account for risk reduction activities.




                                                                                                      10
In our February 2007 report, 8 we found that much remains to be done for the JPDO to
truly become a multi-agency organization as set out in Vision 100. Specifically, we
found that there was considerable coordination among JPDO participating agencies
but little or no alignment of research and development plans—this is still the case
today. Further, individual IPT leaders had no authority to commit their parent
agencies’ resources, and we concluded that a more product-driven approach would be
a step forward.

The JPDO has announced a number of changes, including the formation of a council
to examine regulatory issues. We also understand that the JPDO will refocus the IPTs
as “working groups.” The most notable changes are the dissolution of the Agile Air
Traffic System IPT and the establishment of two new working groups for aircraft and
air navigation services. The IPT restructuring plan has been approved by FAA
management but is still in the process of being implemented. Therefore, we have no
opinion on whether the changes will have the desired affect of shifting JPDO planned
efforts toward implementation.

Progress in Developing Mechanisms for Alignment
It is still not clear to what extent FAA can leverage the wide range of research and
development being conducted at other Federal agencies to help reduce NextGen costs.
The JPDO is developing an inventory of other Federal agencies’ research, and its
preliminary analysis suggests that about $300 million in FY 2008 research dollars
could benefit NextGen. We note that the JPDO’s research inventory is still a work in
progress. JPDO is planning to have a more detailed assessment for the FY 2009
budget cycle.

To help decision makers address whether FAA is leveraging the right research, we
recommended that the JPDO include information on specific research projects it is
leveraging in progress reports to Congress and how that research supports NextGen.
FAA concurred with our recommendation.

Central to the JPDO mission—and to making it an effective multi-agency vehicle—is
the alignment of agency resources. This is a complex task, and the law provides no
authority for the JPDO to redirect agency resources. To its credit, the JPDO has
released a concept of operations for NextGen, but considerable work remains to
effectively align Federal research dollars for NextGen. There are four key efforts in
process for aligning agency resources.

    • NextGen Enterprise Architecture: The JPDO’s efforts to develop an enterprise
      architecture (or overall blueprint for the next generation system) will help in
      setting goals, supporting decisions, adjusting plans, and tracking agency

8
    OIG Report Number AV-2007-031, “Joint Planning and Development Office: Actions Needed To Reduce
    Risks With the Next Generation Air Transportation System,” February 12, 2007.


                                                                                                11
      commitments. It will also show requirements from FAA, DOD, and DHS and
      where various agency efforts fit in NextGen. Moreover, it will help resolve
      difficult policy decisions in the future, such as which agencies pay for what.
      However, considerable work remains to link current systems with future
      capabilities and develop technical requirements, particularly for new automation
      concepts. The architecture documents we have reviewed to date are essentially
      templates that lack sufficient detail to support capital investment decisions. The
      JPDO expects to complete another version this month.

    • NextGen R&D Plan: The JPDO does not yet have a Research and Development
      (R&D) plan that can guide various agency research efforts over the next several
      years. This is important because the JPDO concept of operations has identified
      over 70 research or policy question areas that need attention. Coordinated and
      integrated research planning will be a critical element in the development of
      NextGen, and it is difficult to fathom how the JPDO has functioned without an
      R&D plan thus far. The JPDO is in the process of developing an R&D plan that
      will document NextGen research needs and the organizations that will perform the
      work and expects to publish this plan in August.

    • NextGen Memorandum of Understanding (MOU) for JPDO efforts: For more
      than a year, the JPDO has been working to reach agreement on an MOU with the
      participating agencies. The MOU will not guarantee coordination and alignment
      but can be helpful in setting expectations, roles, and responsibilities. To date, this
      agreement has not been signed by all participating agencies. According to JPDO
      officials, DHS and DOD have not yet signed but are expected to do so soon.

    • NextGen Integrated Budget document: The JPDO is developing an integrated
      budget document that provides a single business case in a document similar, but
      not identical, to the Office of Management and Budget “Exhibit 300.” As we
      noted last year, this will help ensure that various agency efforts are indeed aligned.
      The JPDO has been working with OMB and is targeting to submit an OMB
      Exhibit 300 by September 2007, which will be in time for the FY 2009 budget
      submission.

The Role of NASA
A key, short-term cost driver for NextGen is the role that NASA will play.
Historically, FAA’s R&D efforts have focused on short-term research, with NASA
conducting the majority of long-term air traffic management research, including
automated controller tools and human factors work. NASA requested $529 million in
FY 2007 for aeronautical R&D and is requesting $554 million for FY 2008. 9 Not all

9
    NASA has changed the way it reports and presents its budget. This makes doing year-to-year comparisons
    difficult. The numbers presented in our testimony are from NASA’s FY 2008 budget request and represent
    NASA’s full-cost simplification method, which reallocates overhead costs.


                                                                                                      12
of NASA’s Aeronautics budget is directly linked to NextGen. Of particular interest to
NextGen automation efforts is NASA’s investment in “airspace systems,” which is
funded at about $100 million annually. The JPDO is looking to NASA to develop
automated aircraft metering and sequencing and dynamic airspace reconfiguration—
key elements of NextGen.

NASA is planning to spend less on aeronautical research than it has in the past and is
restructuring its aeronautical research portfolio. In discussing progress with the
JPDO, NASA’s Associate Administrator for Aeronautics told us that NASA no longer
plans to develop prototypes and that research would be restricted to “fundamental
research” 10 and proof of concept experiments. This is in sharp contrast to the support
it gave FAA with the Free Flight Phase 1 program (a previous modernization effort
that introduced, among other things, new automated controller tools at select
locations).

FAA’s Research, Engineering, and Development Advisory Committee (REDAC) 11
has raised concerns about NASA’s efforts to restructure its aeronautics program and
its potential impact on NextGen. 12 The REDAC is concerned that changes to
NASA’s aeronautical research efforts will place uncertainty on the ability of NASA to
deliver development efforts at the same level of technological maturity that it has in
the past. As a result, FAA would have to assume a larger burden and the associated
costs to complete development and bring new systems to fruition. To accommodate
changes in NASA investments and to address this gap, the REDAC estimated that
approximately $100 million would be needed annually.

As we noted in our February 2007 report, it will be important for FAA and NASA to
come to a clear understanding of the level of technical maturity that NASA projects
will have. This has cost and schedule implications for NextGen, particularly new
automated systems for controllers. If NASA is unable to provide projects at a level
that FAA can transition to prototypes, the JPDO and FAA will have to determine how
this R&D will be completed, managed, and paid for.



10
   NASA officials define “fundamental research” as continued long-term, scientific study in areas such as
   physics, chemistry, materials, experimental techniques, and computational techniques that lead to a furthering
   of understanding of underlying principles that form the foundation of the core aeronautics disciplines as well
   as research that integrates the knowledge gained in these core areas to significantly enhance capabilities,
   tools, and technologies at the disciplinary (e.g., aerodynamics, combustion, and trajectory prediction
   uncertainty) and multidisciplinary (e.g., airframe design, engine design, and airspace modeling and
   simulation) levels.
11
   FAA’s Research, Engineering and Development Advisory Committee, established in 1989, advises the
   Administrator on research and development issues and coordinates the FAA’s research activities with
   industry and other Government agencies.
12
   Federal Aviation Administration Research, Engineering, and Development Advisory Committee draft report,
   “Financing the Next Generation Air Transportation System,” August 22, 2005.


                                                                                                             13
The Role of the Department of Defense
An active role by DOD in the development of NextGen would be beneficial because it
is both a provider and a consumer of air traffic services and has national security
missions that require it to utilize the NAS. As we noted in previous reports and
testimonies, DOD’s experiences and lessons learned in sharing data (from air and
ground systems) in actual operations will prove invaluable in reducing cost and
technical risk with NextGen.

To date, DOD has participated in several IPTs, most notably the Weather IPT, and it
had a leadership role in the Shared Situational Awareness IPT, which was
coordinating work on a net-centric system to share data. However, the position of the
Director of Shared Situational Awareness IPT—a DOD official—has been vacant
since June 2006. This has limited DOD’s influence and presence at the JPDO
strategic planning level.

We understand that DOD is planning to designate the Secretary of the Air Force as
the Department’s executive agent for NextGen. There is also discussion about
establishing an office within the Air Force (under the Electronics Systems Center at
Hanscomb Air Force Base) to specifically interface with JPDO. This would enable
the JPDO and DOD to approach NextGen in a more coordinated way—something that
has been missing. It would also establish formal lines of funding for DOD’s
engagement in NextGen efforts and facilitate technology transfer. These plans need
to be finalized; if implemented, they will help the JPDO become a more effective,
multi-agency effort.

FAA Actions Needed To Help the JPDO Shift From Planning to
Implementation and Reduce Risk With NextGen
The transition to NextGen is an extraordinarily complex, high-risk effort involving
billion-dollar investments by the Government and airspace users. We have made a
series of recommendations specifically aimed at reducing risk and facilitating the shift
from planning to implementation.

FAA needs to develop realistic NextGen cost estimates, quantify expected
benefits, and establish a road map for industry to follow. A central question in the
current debate on financing FAA is what the costs associated with developing and
implementing NextGen will be. Figure 2 illustrates FAA’s most recent cost estimates.




                                                                                     14
                                     Figure 2. FAA Capital Funding Projections for FY 2008 to FY 2012
                                    $4,000.0


                                                NextGen Funding                                                           $3,506.3
                                    $3,500.0
                                                                                                            $3,353.0
                                                Remaining F&E
                                                                                         $3,114.7
                                    $3,000.0
                                                                      $2,958.8
F&E Budget Amounts ($ in millions




                                                                                                                          $1,294.6
                                                                                                            $1,256.4                 NextGen Funding
                                                   $2,461.6           $652.8             $956.5
                                    $2,500.0                                                                                         includes ADS-B,
                                                  $174.4                                                                             SWIM, and future
                                                                                                                                     projects supporting
                                    $2,000.0                                                                                         NextGen.

                                                                                                                                     Remaining F&E
                                    $1,500.0                                                                                         includes funding for the
                                                                                                                                     existing projects,
                                                  $2,287.2           $2,306.0                                             $2,211.7   facilities, and support
                                    $1,000.0
                                                                                         $2,158.2           $2,096.6
                                                                                                                                     service contracts.

                                                                                                                                     Total NextGen FY2008 -
                                     $500.0
                                                                                                                                     FY2012 from capital
                                                                                                                                     account is $4.3 billion
                                       $0.0
                                                  FY 2008             FY 2009            FY 2010            FY 2011       FY 2012

                                                                                       Fiscal Year


                                         Source: FAA National Airspace System Capital Investment Plan FY 2008 – FY 2012



                                    FAA estimates suggest that the Agency will require $15.4 billion for capital projects
                                    from FY 2008 to FY 2012. This includes $4.6 billion for NextGen initiatives
                                    ($4.3 billion from the capital account and $300 million from the Research,
                                    Engineering, and Development [RE&D] account).

                                    We note that the bulk of NextGen funds will be allocated to developmental efforts,
                                    including demonstration projects. There are unknowns with respect to performance
                                    requirements for new automation systems and data-link communications. The
                                    development of new automation systems is a particular concern given their
                                    complexity and the fact that almost flawless performance will be required. FAA will
                                    not have a firm grasp on costs until it has a mature enterprise architecture and a
                                    NextGen R&D plan that clearly indicates the contributions of other agencies.

                                    The costs for airspace users to equip with new avionics will be significant. The
                                    JPDO’s most recent progress report estimates the cost for airspace users to be
                                    between $14 billion and $20 billion for the long term. This underscores the need for
                                    FAA to have a clear understanding of complex transition issues and what will be
                                    required to get expected benefits.

                                    Another cost driver focuses on the extent to which FAA intends to consolidate
                                    facilities based on modern technology. We recommended that when FAA reports
                                    NextGen costs to Congress, it should do so along three vectors—research and



                                                                                                                                             15
development needed, adjustments to existing projects, and costs for new initiatives.
FAA agreed and stated that it will build a comprehensive cost estimate this year.

More work remains to set expectations, requirements, and milestones—or “transition
benchmarks”—for developing when new procedures, new ground systems, and
aircraft need to be equipped to realize benefits. During an April 2006 workshop,
industry participants asked FAA for a “service roadmap” that (1) specifies required
aircraft equipage in specific time increments, (2) bundles capabilities with clearly
defined benefits and needed investments, and (3) uses a 4- to 5-year equipage cycle
that is coordinated with aircraft maintenance schedules. Once concepts and plans
have matured, it will be important for FAA to provide this information to industry.

FAA and the JPDO need to develop approaches for risk mitigation and systems
integration. FAA and the JPDO must articulate how they will do things differently
to avoid problems that affected modernization efforts in the past (such as cost growth,
schedule slips, and performance shortfalls). Developing and implementing NextGen
will be an enormously complex undertaking. As the JPDO notes in its December
2004 Integrated Plan, 13 “there has never been a transformation effort similar to this
one with as many stakeholders and as broad in scope.” The central issue focuses on
what will be done differently from past modernization efforts with NextGen
initiatives (other than conducting demonstration projects) to ensure success and
deliver much needed benefits to FAA and airspace users.

FAA’s decision to use the Operational Evolution Plan (the Agency’s blueprint for
capacity) to help implement NextGen is a good first step. Nevertheless, the transition
to NextGen will pose complex software development and integration problems and
require synchronized investments between FAA and airspace users over a number of
years.

To maintain support for NextGen initiatives, we recommended that the JPDO and
FAA articulate how problems that affected past modernization efforts will be
mitigated and what specific skill sets with respect to software development and
system integration will be required. This will help reduce cost and schedule problems
with NextGen initiatives. FAA concurred with our recommendation and stated that it
will form a panel of experts to examine the issues we raised.

FAA is requesting $50 million in its FY 2008 budget for demonstration projects,
which are important opportunities to reduce risk. In the past, FAA has experienced
problems with certifying systems as safe, which led to cost growth and schedule slips.
Therefore, we recommended, and FAA agreed, that planned NextGen demonstration
projects develop sufficient data to establish a path for certifying new systems and
identify the full range of adjustments to policies and procedures needed for success.

13
     JPDO “Next Generation Air Transportation System – Integrated Plan,” December 2004.


                                                                                          16
FAA needs to review ongoing modernization projects and make necessary cost,
schedule, and performance adjustments. As FAA’s budget request points out,
approximately 30 existing capital programs serve as “platforms” for NextGen. We
recommended that FAA review ongoing modernization programs to determine what
adjustments in cost, schedule, and performance will be required. This is critical
because NextGen planning documents suggest that billions of dollars will be needed
to adjust ongoing programs, like ERAM and TFM-M.

During FY 2007 through FY 2008, over 25 critical decisions must be made about
ongoing programs. These decisions will directly impact how quickly new capabilities
can be deployed and will involve establishing requirements for future ERAM
software releases, making investments to support existing radars, and incorporating
weather information into SWIM.

FAA needs to develop a strategy for technology transfer. Technology transfer—
the movement of technology from one organization to another—is a central issue for
the JPDO because the law requires that new capabilities developed by other Federal
agencies (or the private sector) be transitioned into the NAS. The JPDO will have to
pay greater attention to this matter as it moves forward to reduce development times
with NextGen initiatives.

Our past work shows that FAA has experienced mixed results in transitioning systems
developed by others into the NAS. For example, FAA ultimately abandoned work on
a promising new controller tool developed by NASA (the Passive Final Approach and
Spacing Tool) for sequencing and assigning runways to aircraft because of complex
software development (including site-specific customization) and cost issues and
because the benefits were unlikely transferable to other airports.

As we noted in our review of FAA’s Free Flight Phase 1 Program, 14 the use of
“technology readiness levels” 15 could be useful to help assess the maturity of systems
and ease issues associated with technology transfers. Stated simply, these are the
problems associated with efficiently transitioning a new technology from concept to
viable product in the shortest possible time and at the least cost. JPDO progress
reports and planning documents we have reviewed do not use technology readiness
levels. We recommended that the JPDO use technology readiness levels in assessing
the maturity of research conducted in other agencies.

Both NASA and DOD have experience with categorizing technology maturity, which
could help reduce cost, schedule, and technical risks with implementing JPDO

14
   OIG Report Number AV-2002-067, “Free Flight Phase 1 Technologies: Progress to Date and Future
   Challenges,” December 14, 2001.
15
   Technology Readiness Levels – DOD and NASA use a nine-point scale to differentiate the maturity of
   technologies Level 1 (Basic Principles Observed and Reported) to Level 9 (Actual System, Proven Through
   Successful Mission Operations).


                                                                                                      17
initiatives. FAA partially concurred with our recommendation to use technology
readiness levels but pointed out that efficient transition of new technologies will also
require close cooperation between researchers and users of existing systems. We
agree overall technology transfer efforts could be buttressed by the establishment of
“transition” or “maturation” teams to create a developmental pipeline for new
systems.

FAA needs to conduct sufficient human factors research to support anticipated
NextGen changes. The JPDO is planning to make fundamental changes in how the
NAS operates and how controllers manage traffic to accommodate three times more
aircraft in the system. Additionally, changes must address cultural issues within FAA
that could potentially inhibit the implementation of NextGen; this will require doing
business differently than the way it is done now.

History has shown that insufficient attention to human factors can increase the cost of
acquisition and delay much needed benefits. For example, problems in the late 1990s
with FAA’s Standard Terminal Automation Replacement System were directly
traceable to not involving users early enough in the process.

The need for focused human factors research extends well beyond the traditional,
computer-machine interface (such as new controller displays) and has important
workforce and safety implications. For example, FAA expects the controller’s role to
change from direct, tactical control of aircraft to one of overall traffic management.
There also will be significant human factors concerns for pilots as they will be
expected to rely more on data-link communications.

A key issue for human factors research is what can reasonably be expected of new
automation systems and cockpit displays. In its concept of operations for NextGen,
FAA identified the following issues that will require additional human factors work:

 • How will increased automation and new technologies affect flight crew workload?

 • What effect do the changing roles and responsibilities have on safety?

 • What alerts and information displays does a pilot need to safely oversee conflict
   detection and resolution when no one on the ground is responsible for tactical
   separation?

 • If automation fails, what is the back-up plan in terms of people, procedures, and
   automation?




                                                                                     18
To address these important questions, FAA will have to prioritize its ongoing human
factors work and ensure that it is targeted to address critical issues affecting
controllers and pilots. This will also require close cooperation with NASA, which
also conducts human factors research. We agree with the JPDO that simulations and
modeling will be important to gain a full understanding of the human factors issues
and corresponding requirements for NextGen initiatives. We recommended that the
JPDO conduct sufficient human factors analyses and studies to ensure that the
changes envisioned for NextGen can be safely accomplished. FAA concurred and is
developing a plan that identifies roles and responsibilities for JPDO partner agencies,
including human factors research.

Mr. Chairman, that concludes our testimony. I would be pleased to answer any
questions that you or other Members of the Subcommittee might have.




                                                                                    19
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
                         Actions Needed To Reduce Risks
                With the New Generation Air Transportation System

                          Section 508 Compliant Presentation

Figure 1. U.S. Commercial Air Carriers System Enplanements Fiscal Year 2006
to Fiscal Year 2020

Fiscal Year 2005       587.3 million mainline passengers     151.4 million regional passengers
Fiscal Year 2006       584.4 million mainline passengers     156.8 million regional passengers
Fiscal Year 2007       604.7 million mainline passengers     163.7 million regional passengers
Fiscal Year 2008       625.5 million mainline passengers     168.8 million regional passengers
Fiscal Year 2009       647.4 million mainline passengers     173.6 million regional passengers
Fiscal Year 2010       670.4 million mainline passengers     178.5 million regional passengers
Fiscal Year 2011       694.2 million mainline passengers     183.7 million regional passengers
Fiscal Year 2012       719.1 million mainline passengers     189.1 million regional passengers
Fiscal Year 2013       745.1 million mainline passengers     194.7 million regional passengers
Fiscal Year 2014       772.4 million mainline passengers     200.6 million regional passengers
Fiscal Year 2015       801.1 million mainline passengers     206.7 million regional passengers
Fiscal Year 2016       831.1 million mainline passengers       213 million regional passengers
Fiscal Year 2017       862.7 million mainline passengers     219.7 million regional passengers
Fiscal Year 2018       896.4 million mainline passengers     226.6 million regional passengers
Fiscal Year 2019       930.3 million mainline passengers     233.5 million regional passengers
Fiscal Year 2020       965.9 million mainline passengers     240.7 million regional passengers
Source: Federal Aviation Administration Forecast 2007-2020
Figure 2. Federal Aviation Administration Capital Funding Projections for
Fiscal Year 2008 to Fiscal Year 2012

Fiscal Year 2008                NextGen Funding      Remaining              Total
                                   $174,400,000   Facilities and $2,461,600,000
                                                     Equipment
                                                          Funds
                                                $2,287,200,000
 Fiscal Year 2009          NextGen Funding           Remaining              Total
                               $652,800,000       Facilities and $2,958,800,000
                                                     Equipment
                                                          Funds
                                                $2,306,000,000
 Fiscal Year 2010          NextGen Funding           Remaining              Total
                               $956,500,000       Facilities and $3,114,700,000
                                                     Equipment
                                                          Funds
                                                $2,158,200,000
 Fiscal Year 2011          NextGen Funding           Remaining              Total
                              $1,256,400,000      Facilities and $3,353,000,000
                                                     Equipment
                                                          Funds
                                                $2,096,600,000
 Fiscal Year 2012          NextGen Funding           Remaining              Total
                              $1,294,600,000      Facilities and $3,506,300,000
                                                     Equipment
                                                          Funds
                                                $2,211,700,000
Totals: The total NextGen funding projected for this period is $4,334,700,000. The
total Remaining Facilities and Equipment Funds projected for this period are
$11,059,700,000. The grand total (NextGen Funding plus Remaining Facilities and
Equipment Funds) is $15,394,400,000.

Note: NextGen Funding includes the Automatic Dependent Surveillance-Broadcast
Program, the System Wide Information Management Program, and future projects
supporting NextGen. Remaining Facilities and Equipment funds include funding for
the existing projects, facilities, and support service contracts. Total NextGen Fiscal
Year 2008 to Fiscal Year 2012 from the capital account is $4.3 billion.
Source: FAA National Airspace System Capital Investment Plan FY 2008 to FY 2012
